No. 20-1570

In the Supreme Court of the United States
HRB TAX GROUP, INC.; HRB DIGITAL LLC,
Petitioners,
v.
DEREK SNARR,
Respondent.

CERTIFICATE OF COMPLIANCE
I, Archis A. Parasharami, counsel for Petitioners HRB Tax Group, Inc. and
HRB Digital LLC, hereby certify that, according to the word-count tool in Microsoft
Word, the Supplemental Brief for Petitioners consists of 403 words, including
footnotes and excluding the sections enumerated by Rule 33.1(d). The brief therefore
complies with Rule 33.1(g).

/s/ Archis A. Parasharami
Archis A. Parasharami
Mayer Brown LLP
1999 K Street, NW
Washington, D.C. 20006-1101
(202) 263-3000
aparasharami@mayerbrown.com

